INTHE
SUPREME COURT OF THE UNITED STATES

No.

CLAY BRIGHT, in his official capacity as Commissioner of the Tennessee Department of
Transportation,

Applicant,
v.
WILLIAM HAROLD THOMAS, JR.,

Respondent.

APPLICATION TO THE HONORABLE SONIA SOTOMAYOR FOR AN EXTENSION
OF TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

Pursuant to Supreme Court Rules 13(5) and 30.2, Clay Bright, in his official capacity as
Commissioner of the Tennessee Department of Transportation ("TDOT"), respectfully moves for
an extension of 60 days, to and including April 3, 2020, for the filing of a petition for a writ of
certiorari to review the judgment of the United States Court of Appeals for the Sixth Circuit in this
case. The court of appeals issued its opinion and judgment on September 11, 2019 (Exhibit 1)
and denied applicant's timely petition for rehearing on November 6, 2019 (Exhibit 2). Absent the
requested extension, the deadline for filing a petition for certiorari will be February 4, 2020. This
Court has jurisdiction under 28 U.S.C. § 1254(1). In support of this request, applicant states as
follows:
1.

This case presents an important question concerning the constitutionality of

Tennessee's Billboard Regulation and Control Act, 1972 Tenn. Pub. Acts, ch. 655 (codified at

Tenn. Code Ann. § 54-21-1-1 et seq.) ("Billboard Act").
2.

The Tennessee Billboard Act generally prohibits outdoor advertising on areas

adjacent to interstate and primary highways, but several categories of signs are excepted from that
prohibition.

As relevant here, on-premises signs-those that advertise "the sale or lease of

property on which they are located" or "activities conducted on [that] property"-are allowed
without a permit. Tenn. Code Ann. §§ 54-21-103, -107. Off-premises signs are allowed only in
commercial or industrial areas subject to size, lighting, and spacing restrictions and require a
permit from TDOT. Id.
3.

Tennessee's legislature enacted the Billboard Act to comply with the Federal

Highway Beautification Act, 23 U.S.C. § 131. The federal Act conditions ten percent of a State's
federal highway funds on the State's "effective control" of "outdoor advertising signs, displays,
and devices" located on areas adjacent to interstate and primary highways. 23 U.S.C. § 13l(b).
To maintain "effective control" within the meaning of the Act, a State may allow only limited
categories of signs in regulated areas, including signs "advertising the sale or lease of property
upon which they or located" or "advertising activities conducted on [that] property." Id. § 13 l(c).
4.

Respondent William Thomas, a billboard operator, sued the Commissioner of

TDOT alleging that Tennessee's Billboard Act violates the First Amendment as applied to the noncommercial speech that he occasionally displays on one of his billboards. Thomas argued that,
under this Court's decision in Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015), the Billboard Act's
distinction between on-premises and off-premises signs is content based and cannot satisfy strict
scrutiny. The Commissioner argued that the on-premises exception is content neutral, because it
is based predominately on location and does not single out a particular topic or subject matter for

2

differential treatment. Indeed, Justice Alito's concurring opinion in Reed, on behalf of three of
the six members of the majority, specifically identified "[r]ules distinguishing between onpremises and off-premises signs" as an example of a regulation "that would not be content based."
Id. at 2233 (Alito, J., concurring) (emphasis added). The Commissioner also argued that, even if

the exception for on-premises signs is content based, it satisfies strict scrutiny because it is the
least restrictive means of balancing the State's compelling interest in highway safety with its
compelling interest in safeguarding First Amendment rights.
5. The district court ruled in favor of Thomas, Thomas v. Schroer, 248 F. Supp. 3d 868
(W.D. Tenn. 2017), and a panel of the Sixth Circuit affirmed, Thomas v. Bright, 937 F.3d 721 (6th
Cir. 2019). The Sixth Circuit deemed the question whether the on-premises exception is content
based an easy one because, in its view, a regulation is content based if a government official must
"examine the content of the message" on the sign to apply the regulation. Id. at 729 (quoting
McCullen v. Coakley, 573 U.S. 464, 479 (2014)). The Sixth Circuit reasoned that the on-premises

exception is content based because a "Tennessee official must read the message written on the sign
and determine its meaning, function, or purpose." Id. at 730.

As for Justice Alito's Reed

concurrence, the district court speculated that "[t]here might be many formulations of an on/off
premises distinction that are content neutral," notwithstanding that on-premises exceptions like
those found in Tennessee's Billboard Act and the Federal Highway Beautification Act have been
pervasive in state and local sign law for decades. Id. at 733.
The Sixth Circuit subjected the Billboard Act to strict scrutiny and held that it did not
satisfy that demanding standard. The court declined to recognize the State's interest in highway
safety as compelling, even though "the Supreme Court has recognized a compelling interest in

3

'highway safety"' in the Fourth Amendment context. Id. at 733 (quoting Mackey v. Montrym,
443 U.S. 1 (1979)). And while the Sixth Circuit acknowledged that the State has a compelling
interest in safeguarding First Amendment rights, it concluded that the on-premises exception is an
underinclusive means of achieving that interest. Id. at 733, 736-37. Rather than address the
State's least-restrictive-means arguments, the court labeled them "policy concerns" that were
"problems for the Tennessee Legislature, not the courts." Id. at 737.
6.

The Commissioner of TDOT filed a petition for rehearing en bane. After calling

for a response from Thomas, the Sixth Circuit denied the petition.
7.

Counsel for applicant respectfully requests a 60-day extension of time, to and

including April 3, 2020, within which to file a petition for a writ of certiorari. The Sixth Circuit's
decision in this case has prompted some members of the Tennessee General Assembly to consider
amending the Billboard Act. The General Assembly just reconvened for its 2020 legislative
session on January 14, 2020.

The requested extension would allow applicant to monitor

legislative action related to the Billboard Act and take into account any legislative developments
in determining whether to file a petition and in preparing a petition that will be helpful to the Court.

4

CONCLUSION

WHEREFORE, the Commissioner ofTDOT requests a sixty-day extension, to and
including April 3, 2020, to file a petition for a writ of certiorari.

Respectfully submitted,
HERBERT H. SLATERY III
Attorney General and Reporter
ANDREE S. BLUMSTEIN

oi:;l ~~

SARAH K. CAMPELL
Associate Solicitor General
P.O. Box 20207
Nashville, Tennessee 37202
Telephone: (615) 532-6026
Email: Sarah.Campbell@ag.tn.gov

5

